                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     . OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM.

 Case Number: Al1030017                                                                        Page 1 ofl



                   We received an allegation of plagiarism in an NSF proposal.! Our review of the proposal
          indicated a very small amount of apparently copied text without attribution.. We determined the
          alleged plagiarism was a departure, but not a significant departure, from accepted practices in the
          community and, thus, did not warrant further investigation. Nevertheless, we sent a warning letter to
          the PI2 to remind him ofthe importance ofproper citation and quoting practices. Accordingly, this
          case is closed with no further action taken.




NSF OIG Fonn 2 (11102)
